      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General

                                                                         Washington, D.C. 20201




January 30, 2012

TO:           Marilyn Tavenner
              Acting Administrator
              Centers for Medicare & Medicaid Services

              /Brian Ritchie/ for
FROM:         Gloria L. Jarmon
              Deputy Inspector General for Audit Services


SUBJECT:      Review of Nebraska’s Medicaid Payments for Dual Eligible Individuals’
              Medicare Part A Deductibles and Coinsurance (A-07-11-03161)


Attached, for your information, is an advance copy of our final report on Nebraska’s Medicaid
payments for dual eligible individuals’ Medicare Part A deductibles and coinsurance. We will
issue this report to the Nebraska Department of Health & Human Services within 5 business
days.

If you have any questions or comments about this report, please do not hesitate to contact me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or
Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at (816) 426-3591
or through email at Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-11-03161
in all correspondence.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106
February 6, 2012

Report Number: A-07-11-03161

Ms. Vivianne M. Chaumont
Director, Division of Medicaid & Long Term Care
Nebraska Department of Health & Human Services
301 Centennial Mall South, 3rd Floor
P.O. Box 95026
Lincoln, NE 68509-5026

Dear Ms. Chaumont:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Nebraska’s Medicaid Payments for Dual Eligible
Individuals’ Medicare Part A Deductibles and Coinsurance. We will forward a copy of this
report to the HHS action official noted on the following page for review and any action deemed
necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Greg Tambke, Audit Manager, at (573) 893-8338, extension 30, or
through email at Greg.Tambke@oig.hhs.gov. Please refer to report number A-07-11-03161 in
all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Vivianne M. Chaumont


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF NEBRASKA’S MEDICAID
  PAYMENTS FOR DUAL ELIGIBLE
 INDIVIDUALS’ MEDICARE PART A
DEDUCTIBLES AND COINSURANCE




                       Daniel R. Levinson
                        Inspector General

                         February 2012
                         A-07-11-03161
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Nebraska, the Department of Health & Human
Services (State agency) administers the Medicaid program.

Pursuant to Title XVIII of the Act, the Medicare program provides health insurance for people
aged 65 and over, people with disabilities, and people with end-stage renal disease. CMS
contracts with fiscal intermediaries or Medicare administrative contractors to process and pay
Medicare Part A claims submitted by providers. Medicare Part A covers inpatient hospital
services and skilled nursing care.

“Dual eligibles” are individuals who are entitled to both Medicare and some form of Medicaid
benefits. There are various groups of dual eligibles, including but not limited to Qualified
Medicare Beneficiary (QMB) without full Medicaid (QMB Only), QMB with full Medicaid
(QMB Plus), Specified Low-Income Beneficiary with full Medicaid (SLMB Plus), and Full
Benefit Dual Eligible (FBDE). These eligibility groups are qualified to have their Medicare
Part A deductibles and coinsurance paid for by the Medicaid program.

After the Medicare contractor pays a Medicare Part A claim for a dual eligible and assesses the
Medicare Part A deductibles and coinsurance, the contractor forwards the claim information to
the appropriate State’s Medicaid program. The State Medicaid program determines, based on
the guidelines established in its State plan, whether to pay part or all of the Medicare Part A
deductibles and coinsurance and then pays the provider through the usual Medicaid payment
system. We refer to such claims as crossover claims.

The Nebraska State plan requires coordination of Medicaid with Medicare and provides methods
and standards for the payment of crossover claims. The State plan limits the payment of
Medicare Part A deductibles and coinsurance for QMB Only, QMB Plus, SLMB Plus, and
FBDE beneficiaries to the State Medicaid plan rate for all Medicare Part A services except for
Medicare-only services, inpatient hospital services provided in small rural hospitals, services
provided by skilled nursing units in small rural hospitals, and hospice care.

To execute the provisions of the State plan, the State agency should compare the Medicare
payment to the State Medicaid plan rate for each crossover claim to determine the allowable
payment of Medicare Part A deductibles and coinsurance. Based on this comparison and on the
particular eligibility group, the allowable payment is either (1) the amount by which the State
Medicaid plan rate exceeds the actual Medicare payment, limited by the Medicare Part A
deductibles and coinsurance (for the QMB Only and QMB Plus eligibility groups), or (2) the



                                                i
amount by which the State Medicaid plan rate exceeds the actual Medicare payment (for the
SLMB Plus and FBDE eligibility groups).

The State agency claimed Federal reimbursement for Medicaid payments totaling approximately
$1.6 billion (approximately $1.1 billion Federal share) during fiscal year (FY) 2009 (October 1,
2008, through September 30, 2009). As part of these Medicaid payments, the State agency
claimed approximately $19.0 million (approximately $13.0 million Federal share) for payments
for Medicare Part A deductibles and coinsurance.

OBJECTIVE

Our objective was to determine whether the Medicaid payments for Medicare Part A deductibles
and coinsurance that the State agency claimed for Federal reimbursement during FY 2009 were
allowable pursuant to Federal requirements and the approved State plan.

SUMMARY OF FINDING

During FY 2009, the State agency did not claim Medicaid payments for Medicare Part A
deductibles and coinsurance pursuant to Federal requirements and the approved State plan.
Specifically, the State agency did not limit payment of Medicare Part A deductibles and
coinsurance to State Medicaid plan rates as required under the State plan, resulting in 60 of the
100 claims in our sample being improperly paid.

These discrepancies occurred because the State agency did not compare the Medicare payment to
the State Medicaid plan rate. Based on the results of our sample, we estimate that the State
agency claimed unallowable Medicaid payments of $8,283,081 ($5,519,029 Federal share)
during FY 2009.

RECOMMENDATION

We recommend that the State agency refund $5,519,029 to the Federal Government for
unallowable Medicaid payments for Medicare Part A deductibles and coinsurance.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our finding or with
the two recommendations in the report.

With respect to our first recommendation, the State agency said that the relevant section of the
Nebraska State plan was amended in 2004 to add hospice services, but with no intention of
changing the payment methodology for payment of Medicare coinsurance and deductibles from
the methodology established prior to the 2004 State plan amendment. The State agency
attributed the change to a “scribe’s error.”

With respect to the second recommendation (which called for the State agency to compare the
Medicare payment to the State Medicaid plan rate to determine the allowable Medicare Part A



                                                 ii
deductibles and coinsurance for each crossover claim), the State agency said that it had corrected
the “scribe’s error” by submitting a State plan amendment, which CMS approved on
November 2, 2011.

The State agency’s comments are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we removed the second recommendation, but we
maintain that our finding and the remaining recommendation are valid. A “scribe’s error” does
not exempt the State agency from its responsibility to follow the documented and approved State
plan that was in effect during our audit period.

We removed our second recommendation because it is no longer applicable to payments from
July 1, 2011, going forward. The State plan amendment, which CMS approved on November 2,
2011, removes the State Medicaid plan rate limits on the payment of deductibles and coinsurance
for all Medicare Part A services effective July 1, 2011.




                                                iii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Medicaid Program .........................................................................................................1
         Medicare Program .........................................................................................................1
         Dual Eligibles ................................................................................................................1
         Medicaid’s Role in Paying Medicare Part A
          Deductibles and Coinsurance .....................................................................................2
         Nebraska Medicaid Program..........................................................................................2

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................4

FINDING AND RECOMMENDATION ...................................................................................5

          UNALLOWABLE MEDICAID PAYMENTS CLAIMED ..............................................5
            Federal Requirements ...................................................................................................5
            State Plan Requirements ...............................................................................................6
            Unallowable Medicaid Payments .................................................................................6
            Medicare Payments Not Compared to State Medicaid Plan Rates ...............................6

          RECOMMENDATION ....................................................................................................7

          STATE AGENCY COMMENTS .....................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE .......................................................8

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                     iv
                                              INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly administer and fund the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Nebraska, the Department of Health & Human
Services (State agency) administers the Medicaid program.

Pursuant to section 1905(b) of the Act, the Federal Government pays its share of each State’s
claimed medical assistance payments under Medicaid based on the Federal medical assistance
percentage (FMAP), which varies depending on the State’s relative per capita income. Although
FMAPs are adjusted annually for economic changes in the States, Congress may increase or
decrease FMAPs at any time. During fiscal year (FY) 2009 (October 1, 2008, through
September 30, 2009), Nebraska’s FMAP ranged from 65.74 percent to 67.79 percent. 1

Medicare Program

Pursuant to Title XVIII of the Act, the Medicare program provides health insurance for people
aged 65 and over, people with disabilities, and people with end-stage renal disease. CMS, which
administers the program, contracts with fiscal intermediaries or Medicare administrative
contractors 2 to process and pay Medicare Part A claims submitted by providers. Medicare Part
A covers inpatient hospital services and skilled nursing care.

Dual Eligibles

“Dual eligibles” are individuals who are entitled to both Medicare and some form of Medicaid
benefits. There are various groups of dual eligibles, including but not limited to Qualified
Medicare Beneficiary (QMB) without full Medicaid (QMB Only), QMB with full Medicaid
(QMB Plus), Specified Low-Income Beneficiary with full Medicaid (SLMB Plus), and Full



1
 Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5, as amended by P.L. No. 111-226,
States’ FMAPs were temporarily increased for the period October 1, 2008, through June 30, 2011.
2
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P. L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.


                                                         1
Benefit Dual Eligible (FBDE). These eligibility groups are qualified to have their Medicare
Part A deductibles and coinsurance paid for by the Medicaid program. 3

Medicaid’s Role in Paying Medicare Part A
Deductibles and Coinsurance

After the Medicare contractor pays a Medicare Part A claim for a dual eligible and assesses the
Medicare Part A deductibles and coinsurance, the contractor forwards the claim information to
the appropriate State’s Medicaid program. The State Medicaid program determines, based on
the guidelines established in its State plan, whether to pay part or all of the Medicare Part A
deductibles and coinsurance and then pays the provider through the usual Medicaid payment
system. We refer to such claims as crossover claims.

For beneficiaries classified in the QMB Only and QMB Plus eligibility groups, States are
mandated to pay Medicare Part A deductibles and coinsurance. Pursuant to section 1902(n)(2)
of the Act, the Medicare payment for a service plus the Medicaid payment for any Medicare
Part A deductibles and coinsurance may exceed the State Medicaid plan rate for the service.
Section 1902(n)(2) also says, however, that a State is not required to pay for Medicare Part A
deductibles and coinsurance on behalf of QMB Only and QMB Plus beneficiaries to the extent
that the Medicare payment for the service exceeds what the State Medicaid program would have
paid on behalf of a Medicaid-only recipient. If a State caps its Medicare Part A deductible and
coinsurance coverage pursuant to section 1902(n)(2) of the Act and the Medicare payment for a
service is equal to or exceeds the State Medicaid plan rate, the State makes no payment for
Medicare Part A deductibles and coinsurance. If, on the other hand, the Medicare payment is
less than the State Medicaid plan rate for a service, the State pays the Medicare Part A
deductibles and coinsurance up to the difference between the amount paid by Medicare and the
State Medicaid plan rate.

For beneficiaries classified in the SLMB Plus and FBDE eligibility groups, States are not
mandated to pay Medicare Part A deductibles and coinsurance. However, because SLMB Plus
and FBDE beneficiaries are entitled to full Medicaid benefits, they may be entitled to have
Medicare Part A deductibles and coinsurance paid on their behalf when a service is covered by
both Medicare and Medicaid. For Medicaid-covered services, the State agency will pay the
difference between the State Medicaid plan rate and the Medicare payment.

In all cases, the amount paid by the State, if any, is payment in full for Medicare Part A
deductibles and coinsurance.

Nebraska Medicaid Program

In Nebraska, the State agency is responsible for processing crossover claims. Those
responsibilities include establishing internal controls and systems, which include policies and


3
 There are also other groups of dual eligible beneficiaries who are not qualified to have their Medicare Part A
deductibles and coinsurance paid for by the Medicaid program: Specified Low-Income Medicare Beneficiary
without full Medicaid (SLMB Only), Qualified Disabled and Working Individual, and Qualified Individual.


                                                          2
procedures to accurately pay Medicare Part A deductibles and coinsurance in accordance with
the State plan.

The State agency must comply with certain Federal requirements pursuant to section 1902(a)(1)
of the Act and implementing regulations (42 CFR § 431.50), which provide that a State plan for
medical assistance is mandatory upon the State and all of its political subdivisions.

The Nebraska State plan requires coordination of Medicaid with Medicare and provides methods
and standards for the payment of crossover claims. The State plan limits the payment of
Medicare Part A deductibles and coinsurance for QMB Only, QMB Plus, SLMB Plus, and
FBDE beneficiaries to the State Medicaid plan rate for all Medicare Part A services except for
Medicare-only services, inpatient hospital services provided in small rural hospitals, services
provided by skilled nursing units in small rural hospitals, and hospice care.

To execute the provisions of the State plan, the State agency should compare the Medicare
payment to the State Medicaid plan rate for each crossover claim to determine the allowable
payment of Medicare Part A deductibles and coinsurance. Based on this comparison and on the
particular eligibility group, the allowable payment is either (1) the amount by which the State
Medicaid plan rate exceeds the actual Medicare payment, limited by the Medicare Part A
deductibles and coinsurance (for the QMB Only and QMB Plus eligibility groups), or (2) the
amount by which the State Medicaid plan rate exceeds the actual Medicare payment (for the
SLMB Plus and FBDE eligibility groups). 4

The State agency claimed Federal reimbursement for Medicaid payments totaling approximately
$1.6 billion (approximately $1.1 billion Federal share) during FY 2009. As part of these
Medicaid payments, the State agency claimed approximately $19.0 million (approximately
$13.0 million Federal share) for payments for Medicare Part A deductibles and coinsurance.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid payments for Medicare Part A deductibles
and coinsurance that the State agency claimed for Federal reimbursement during FY 2009 were
allowable pursuant to Federal requirements and the approved State plan.

Scope

We reviewed approximately $19.0 million (approximately $13.0 million Federal share) in
Medicaid payments that the State agency made and claimed for Federal reimbursement for
Medicare Part A deductibles and coinsurance during FY 2009.



4
 Because SLMB Plus and FBDE beneficiaries are entitled to full Medicaid benefits, they may be entitled to have
Medicare Part A deductibles and coinsurance paid on their behalf when a service is covered by both Medicare and
Medicaid.


                                                        3
Our objective did not require a review of the State agency’s overall internal control structure.
Therefore, we limited our internal control review to the State agency’s procedures for paying
Medicare Part A deductibles and coinsurance.

We conducted fieldwork at the State agency in Lincoln, Nebraska, in March 2011.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal requirements and the Nebraska State Medicaid plan;

   •   interviewed State agency officials to gain an understanding of their policies and
       procedures for claiming Medicare Part A deductibles and coinsurance;

   •   requested and received from the State agency crossover claim data for Medicare Part A
       deductibles and coinsurance totaling 14,306 data records, each equaling 1 crossover
       claim;

   •   selected and reviewed a simple random sample of 100 paid crossover claims from our
       sampling frame of 14,306 crossover claims (Appendixes A and B) and, for each sampled
       crossover claim:

           o reviewed Medicare’s payment and Medicare Part A deductible and coinsurance
             amounts,

           o reviewed the State Medicaid plan rate,

           o compared Medicare’s payment to the State Medicaid plan rate to determine the
             allowable and unallowable (if any) Medicaid payment of Medicare Part A
             deductible and coinsurance amounts, and

           o verified that the beneficiary in question was in one of the four eligibility groups
             (QMB Only, QMB Plus, SLMB Plus, or FBDE) of dual eligibles;

   •   computed the overpayment amount by estimating the unallowable Medicaid payments at
       the lower limit of the 90-percent confidence interval (Appendix B); and

   •   discussed our results with State agency officials on July 28, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.



                                                 4
                           FINDING AND RECOMMENDATION

During FY 2009, the State agency did not claim Medicaid payments for Medicare Part A
deductibles and coinsurance pursuant to Federal requirements and the approved State plan.
Specifically, the State agency did not limit payment of Medicare Part A deductibles and
coinsurance to State Medicaid plan rates as required under the State plan, resulting in 60 of the
100 claims in our sample being improperly paid.

These discrepancies occurred because the State agency did not compare the Medicare payment to
the State Medicaid plan rate. Based on the results of our sample, we estimate that the State
agency claimed unallowable Medicaid payments of $8,283,081 ($5,519,029 Federal share)
during FY 2009.

UNALLOWABLE MEDICAID PAYMENTS CLAIMED

Federal Requirements

Section 1902(a)(1) of the Act states: “A State plan for medical assistance must—(1) provide that
it shall be in effect in all political subdivisions of the State, and, if administered by them, be
mandatory upon them ….”

Federal regulations (42 CFR § 431.50(b)(1)) expand upon this provision of the Act by requiring
that the State plan “… will be in operation statewide through a system of local offices, under
equitable standards for assistance and administration that are mandatory throughout the State.”

Section 1902(a)(10)(E) of the Act states that a State plan must provide “for making medical
assistance available for [M]edicare cost-sharing [deductibles and coinsurance] … for qualified
[M]edicare beneficiaries [QMB Only and QMB Plus]….”

Section 1902(n)(2) of the Act states: “… a State is not required to provide any payment for any
expenses incurred relating to payment for deductibles [or] coinsurance … [on behalf of a QMB
Only or QMB Plus] to the extent that payment under title XVIII [Medicare] for the service would
exceed the payment amount that otherwise would be made under the State plan [State Medicaid
plan rate] under this title for such service if provided to an eligible recipient other than a
[M]edicare beneficiary.”

Section 1902(a)(30)(A) of the Act states that a State plan must “provide such methods and
procedures relating to … the payment for, care and services available under the plan … as may
be necessary to safeguard against unnecessary utilization of such care and services and to assure
that payments are consistent with efficiency, economy, and quality of care ….”

The Act does not mandate that States pay Medicare Part A deductibles or coinsurance for SLMB
Plus or FBDE beneficiaries. However, because SLMB Plus and FBDE beneficiaries are entitled
to full Medicaid benefits, they may be entitled to have Medicare Part A deductibles and
coinsurance paid on their behalf when a service is covered by both Medicare and Medicaid.




                                                 5
State Plan Requirements

The Nebraska State plan, section 3.2(b), requires coordination of Medicaid with Medicare and
provides methods and standards for payment of Medicare Part A deductibles and coinsurance.
Supplement 1 to Attachment 4.19-B of the State plan limits payment of Medicare Part A
deductibles and coinsurance on behalf of QMB Only and QMB Plus beneficiaries to the amount,
if any, by which the State Medicaid plan rate exceeds the Medicare payment, except for
Medicare-only services, inpatient hospital services provided in small rural hospitals, services
provided by skilled nursing units in small rural hospitals, and hospice care. The State plan
specifies that the State agency pays for Medicare Part A deductibles and coinsurance for these
services irrespective of the State Medicaid plan rate. Supplement 1 to Attachment 4.19-B of the
State plan also limits payment of Medicare Part A deductibles and coinsurance on behalf of
SLMB Plus and FBDE beneficiaries to the amount, if any, by which the State Medicaid plan rate
exceeds the Medicare payment, except for inpatient hospital services provided in small rural
hospitals, services provided by skilled nursing units in small rural hospitals, and hospice care.

Unallowable Medicaid Payments

The State agency did not claim Medicaid payments for Medicare Part A deductibles and
coinsurance pursuant to Federal requirements and the approved State plan. Contrary to the
provisions of the State plan, the State agency did not limit payment of Medicare Part A
deductibles and coinsurance to State Medicaid plan rates. When we compared the Medicare
payment to the State Medicaid plan rate for the 100 sampled claims, we found that 60 of the 100
claims were improperly paid. For those 100 claims, the State agency paid $169,074 but should
have paid $95,781, a difference of $73,293 ($48,829 Federal share).

Medicare Payments Not Compared to State Medicaid Plan Rates

The State agency should have compared the Medicare payment to the State Medicaid plan rate to
determine the allowable Medicare Part A deductibles and coinsurance for each crossover claim.
The table on the following page presents three examples, using actual values drawn from the
claims we sampled, for the calculation of allowable Medicare Part A deductibles and
coinsurance.




                                                6
                                        Sample Crossover Claims
                     Medicare                                             Medicaid


                                                                               Allowable
                                                                              Payment for
                                                                               Medicare    Unallowable
                                                                                Part A     Payment for
                    Medicare Part A              State                        Deductibles Medicare Part A
                    Deductibles and            Medicaid                           and     Deductibles and
Claim     Payment    Coinsurance               Plan Rate       Payment        Coinsurance  Coinsurance
  A          $3,240          $1,024                 $3,080       $1,024                $0          $1,024
  B           7,060           1,068                  7,960        1,068               900              168
  C          32,148              625                39,337          625               625                0

Notes:   Claim A: State Medicaid plan rate is lower than Medicare payment.
         Claim B: State Medicaid plan rate is higher than Medicare payment.
         Claim C: State Medicaid plan rate is higher than Medicare payment.

These discrepancies occurred because the State agency did not compare the Medicare payment to
the State Medicaid plan rate. Based on the results of our sample, we estimate that the State
agency claimed unallowable Medicaid payments of $8,283,081 ($5,519,029 Federal share).

RECOMMENDATION

We recommend that the State agency refund $5,519,029 to the Federal Government for
unallowable Medicaid payments for Medicare Part A deductibles and coinsurance.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency did not concur with our finding or with
the two recommendations in the report.

With respect to our first recommendation, the State agency stated: “The section of the Nebraska
state plan that was reviewed by the OIG [Office of Inspector General] was Attachment 4.19-B
Supplemental 1, page two [NE SPA 04-02]. This section of the Nebraska State plan was revised
in 2004 to add hospice services. There was no intention of changing the payment methodology
for payment of Medicare coinsurance and deductibles from the methodology described in NE
SPA 91-24.” The State agency added, “The change to page two was a scribe’s error.”

With respect to the second recommendation (which called for the State agency to compare the
Medicare payment to the State Medicaid plan rate to determine the allowable Medicare Part A
deductibles and coinsurance for each crossover claim), the State agency said that it had corrected
the “scribe’s error” by submitting a State plan amendment, which CMS approved on November
2, 2011.

The State agency’s comments are included in their entirety as Appendix C.



                                                       7
OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we removed the second recommendation in our
draft report, but we maintain that our finding and the remaining recommendation are valid.

Section 1902(a)(1) of the Act states: “A State plan for medical assistance must—(1) provide that
it shall be in effect in all political subdivisions of the State, and, if administered by them, be
mandatory upon them ….” Pursuant to section 1903(a) of the Act, once a State plan is approved,
a State becomes eligible to receive Federal reimbursement for a specified percentage “of the total
amount expended … as medical assistance under the State plan.” Only those expenditures for
medical assistance made by a State in accordance with the State plan are eligible for Federal
reimbursement. The Nebraska State plan, Supplement 1 to Attachment 4.19-B, in effect during
our audit period (NE SPA 04-02) limits payment of Medicare Part A deductibles and coinsurance
to the State Medicaid plan rate, except for Medicare-only services, inpatient hospital services
provided in small rural hospitals, services provided by skilled nursing units in small rural
hospitals, and hospice care. The relevant provisions of NE SPA 04-02 are unambiguous and not
open to interpretation. A “scribe’s error” does not exempt the State agency from its
responsibility to follow the documented and approved State plan that was in effect during our
audit period. 5

We removed our second recommendation because it is no longer applicable to payments from
July 1, 2011, going forward. The State plan amendment, which CMS approved on November 2,
2011, removes the State Medicaid plan rate limits on the payment of deductibles and coinsurance
for all Medicare Part A services effective July 1, 2011.




5
 The State agency did not explain what it meant by the term “scribe’s error,” but we note that page 2 of
Supplement 1 to Attachment 4.19-B in NE SPA 04-02 is vastly different in both form and substance from the same
page in NE SPA 91-24.


                                                       8
APPENDIXES
                                                                                                      Page 1 of 2


                  APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicare Part A crossover claims paid by the Nebraska Department
of Health & Human Services (State agency) on behalf of dual eligibles for fiscal year (FY) 2009
(October 1, 2008, through September 30, 2009). Dual eligibles are individuals who are entitled
to both Medicare and some form of Medicaid benefits.

SAMPLING FRAME

We developed a database of paid crossover claims for dual eligibles’ Medicare Part A
deductibles and coinsurance for FY 2009. 1 The database contained 3,632,771 lines of data
totaling $59,689,266.

We excluded the following from the database:

    •   2,325,390 lines of claims worth zero dollars and

    •   1,291,946 lines of paid crossover claims for dual eligibles’ Medicare Part B deductibles
        and coinsurance in the amount of $40,784,728.

We grouped the remaining line items (which consisted of both debits and credits) by claim
number and summed them by line-paid amount to get a listing of crossover claims that the State
agency paid. This eliminated an additional 533 line items.

We then excluded 596 crossover claims for which the sum of the line-paid amount was equal to
or less than $2. The remaining crossover claims constituted our sampling frame of 14,306
claims totaling $19,247,240 ($12,850,249 Federal share) for FY 2009, from which we drew our
random sample.

A paid crossover claim is based on the claim number. A claim number is the same for the
original claim and adjustments. Each crossover claim shows when the service was provided,
who provided the service, who received the service, the payment made by Medicare, the
payment made by the dual eligible, any copayment, and the remaining Medicare Part A
deductibles and coinsurance forwarded to Medicaid.

SAMPLE UNIT

A sample unit was one crossover claim (for a dual eligible during a given time period) paid by
the State agency.



1
  After the Medicare contractor pays a Medicare Part A claim for a dual eligible and assesses the Medicare Part A
deductibles and coinsurance, the claim information is forwarded to the appropriate State’s Medicaid program. We
refer to such claims as crossover claims.
                                                                                  Page 2 of 2


SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 sample units (claims) for review.

SOURCE OF THE RANDOM NUMBERS

We generated random numbers using the Office of Inspector General, Office of Audit Services,
statistical software RAT-STATS.

ESTIMATION METHODOLOGY

We used the variable appraisal program in RAT-STATS to estimate the unallowable Medicaid
payments for dual eligibles’ Medicare Part A deductibles and coinsurance. Because the Federal
medical assistance percentage (FMAP) matching rate varied from year to year, we also used the
RAT-STATS variable appraisal program to estimate the total FMAP reimbursed to Nebraska for
unallowable dual eligibles’ Medicare Part A deductibles and coinsurance. We calculated the
FMAP amount for each sample item by applying the applicable FMAP rate to the total amount
determined to be in error for the sample item.
           APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                              SAMPLE RESULTS

                                       Number     Total        Value of
              Value of        Sample     of      Value of       Errors
Frame Size     Frame           Size    Errors    Sample     (Federal Share)

  14,306     $19,247,240       100       60      $169,074      $48,829

      ESTIMATES OF UNALLOWABLE MEDICAID PAYMENTS
         (Limits Calculated for a 90-Percent Confidence Interval)

             Point estimate                   $6,985,525
             Lower limit                       5,519,029
             Upper limit                       8,452,022
                                    Page 1 of 3


APPENDIX C: STATE AGENCY COMMENTS
Page 2 of 3
Page 3 of 3
